BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

A.

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Brief in Opposition in
19-763, Richard C. Angino, et ux. v. TransUnion LLC,
were sent via Next Day Service to the U.S. Supreme
Court, and 3 copies were sent via Next Day Service
and e-mail to the following parties listed below, this
14th day of February, 2020:
Richard C. Angina
Angina Law Firm
1800 Linglestown Road
Suite 301
Harrisburg, PA 17110
(717) 238-6791
rca@anginolaw.com

Counsel for Petitioners
Camille R. Nicodemus
Counsel of Record
SCHUCKIT & ASSOCIATES PC
Robert J. Schuckit
Justin T. Walton
4545 Northwestern Drive
Zionsville, IN 46077
(317) 363-2400
rschuckit@schuckitlaw.com
cnicodem us@sch uckitlaw .com
jwalton@schuckitla w .com

Attorney for Respondent
Trans Union, LLC

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

KERSHNER, ).D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 14, 2020.

Julie A. Kershner \
Becker Gallagher Lega ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

